   June 10, 2005




Information Technology Management

Reporting of DoD Capital Investments for
Information Technology in Support of the
FY 2006 Budget Submission
(D-2005-083)




            Department of Defense
           Office of Inspector General
Quality             Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
ASD(NII)              Assistant Secretary of Defense for Networks and Information
                         Integration
DBSMC                 Defense Business Systems Management Committee
CFO                   Chief Financial Officer
CIO                   Chief Information Officer
CIR                   Capital Investment Report
IT                    Information Technology
OMB                   Office of Management and Budget
                                  INSPECTOR GENERAL
                                DEPARTMENT OF DEFENSE
                                 400 ARMY NAVY DRIVE
                            ARLINGTON, VIRGINIA 22202-4704



                                                                                 June 10,2005
MEMORANDUM FOR UNDER SECRETARY OF DEFENSE ACQUISITION,
                 TECHNOLOGY. AND LOGISTICS
                          FINANCIAL OFFICER
                        UNDER SECRETARY OF DEFENSE PERSONNEL AND
                          - -.ADTNESS
                          RF   -- .---
                        ASSISTANT SECRETARY OF DEFENSE FOR NETWORKS AND
                          INFORMATION INTEGRATION /DOD CHIEF INFORMATION
                          OFFICER
SUBJECT: Report on Reporting of DoD Capital Investments for Information Technology in
         Support of the FY 2006 Budget Submission (Report No. D-2005-083)

     We are providing this report for review and comment. We considered management
comments on a draft of this report when preparing the final report.
        DoD Directive 7650.3 requires that all recommendations be resolved promptly. As a
result of management comments, we revised Recommendation 1. to clarify our position on
improving the quality of information technology reporting to the Office of Management and
Budget and Congress, and redirected Recommendation 1. to the Under Secretary of Defense for
Acquisition, Technology, and Logistics and the Under Secretary of Defense for Personnel and
Readiness, in addition to the Under Secretq of Defense (Comptrol1er)lChiefFinancial Officer
and the Assistant Secretary of Defense for Networks and Information IntegrationIDoD Chief
Information Officer. Therefore, we request that the Under Secretary of Defense for Acquisition,
Technology, and Logistics and the Under Secretary of Defense for Personnel and Readiness, in
addition to the Under Secretary of Defense (Comptrol1er)lChief Financial Officer and the
Assistant Secretary of Defense for Networks and Information IntegrationIDoD Chief
Information Officer provide comments on revised Recommendation 1. by July 8,2005.
        If~ossible.lease send manaeement comments in elecwonic format (Adobe Acrobat file
only) to ~udam@~odia.osd.mil.      Copies of the management comments musi contain the actual
signature of the authorizing official. We cannot accept the / Signed / symbol in place of the
actual signature. If you arrange to send classified comments elictronically, theymust be sent
over the SECRET Internet Protocol Router Network (SIPRNET).
         We appreciate the courtesies extended to the staff. Questions should be directed to
Ms. Kathryn M. Truex at (703) 604-8966 @SN 664-8966) or Mr. Robert R. Johnson at (703)
604-9024 @SN 664-9024). See Appendix E for the report distribution. The team members are
listed inside the back cover.
                                     By direction of the Deputy Inspector General for Auditing:




                                         Assistant Inspator General
                                 for Acquisition and Technology Management
               Department of Defense Office of Inspector General
Report No. D-2005-083                                                     June 10, 2005
  (Project No. D2005-D000AL-0036.000)

                  Reporting of DoD Capital Investments for
                  Information Technology in Support of the
                        FY 2006 Budget Submission

                                Executive Summary

Who Should Read This Report and Why? DoD managers preparing and certifying
capital investment justifications for information technology should read this report to
improve the quality of data being submitted by the Department of Defense to the Office
of Management and Budget and Congress.

Background. Information technology is a President’s Management Agenda priority for
expanding electronic government. In addition, Congress has challenged, in committee
report language, the quality of DoD information technology management because
information technology documents and associated budget data that DoD provided were
inaccurate, misleading, or incomplete. For FY 2006, the DoD Budget Estimate
Submission totaled $30 billion for information technology.

Results. DoD Components did not adequately report information technology
investments to the Office of Management and Budget in support of the DoD Budget
Request for FY 2006 because Component Chief Information Officers and Chief Financial
Officers did not always include required information in submitted reports. Specifically,
157 of 171 (92 percent) Capital Investment Reports submitted to the Office of
Management and Budget in September 2004 did not completely respond to one or more
required data elements addressing security funding, certification and accreditation,
training and security plans, and enterprise architecture. As a result, the quality of DoD
information reported to the Office of Management and Budget continues to have limited
value and does not demonstrate, in accordance with Office of Management and Budget
and DoD guidance, that DoD was effectively managing its proposed information
technology investment for FY 2006. See the Finding section of the report for the detailed
recommendations.

Management Comments and Audit Response. The Deputy Comptroller, responding
for the Under Secretary of Defense(Comptroller)/Chief Financial Officer, commented
that responsibility for review and compilation of information technology (IT) material,
primarily the IT-43 exhibits, was realigned from the Under Secretary of Defense
(Comptroller) to the Office of the Assistant Secretary of Defense (Command, Control,
Communications, and Intelligence) on January 14, 1998, and the Under Secretary of
Defense (Comptroller) organization that was responsible for the IT-43 exhibits has been
disestablished. We agree that a 1998 realignment occurred; however, the Congress and
the Deputy Secretary of Defense have recently directed that the Under Secretary of
Defense (Comptroller)/Chief Financial Officer; the Under Secretary of Defense for
Personnel and Readiness; and the Under Secretary of Defense for Acquisition,
Technology, and Logistics assume specific responsibilities with regard to information
technology governance, in addition to those responsibilities assigned to the Assistant
Secretary of Defense for Networks and Information Integration/DoD Chief Information
Officer (see Appendix D). Recommendation 1. has been revised and redirected to reflect
this guidance.

The Deputy Assistant Secretary of Defense (Resources), responding on behalf of the
Acting Assistant Secretary of Defense for Networks and Information Integration/DoD
Chief Information Officer, partially concurred and commented that the concurrent
DoD/Office of Management and Budget program and budget review process rendered it
neither feasible nor logical to withhold submission of Component information technology
budget requests that do not comply with the Office of Management and Budget and
congressional requirements, and/or have not been certified by the Component Chief
Information Officer and Chief Financial Officer as compliant with the requirements of
the DoD Regulation 7000.14-R, “Financial Management Regulation,” Volume 2B,
Chapter 18, “Information Technology Resources and National Security Systems,”
June 2004. The Deputy Assistant Secretary of Defense (Resources) commented that she
would enlist the help of the Office of the Under Secretary of Defense (Comptroller)/Chief
Information Officer to enforce the DoD Financial Management Regulation. As indicated
above, Recommendation 1. was revised in light of management comments and recent
direction from the Congress and the Deputy Secretary of Defense. See the Finding
section of the report for a discussion of management comments and the Management
Comments section of the report for the complete text of the comments.

We request that the Assistant Secretary of Defense for Networks and Integration/DoD
Chief Information Officer; the Under Secretary of Defense (Comptroller)/Chief Financial
Officer; the Under Secretary of Defense for Personnel and Readiness; and the Under
Secretary of Defense for Acquisition, Technology, and Logistics provide comments on
the final report by July 8, 2005.




                                           ii
Table of Contents

Executive Summary                                                        i

Background                                                               1

Objectives                                                               2

Finding
     Completeness of DoD Capital Investment Reports                      3

Appendixes
     A. Scope and Methodology                                           14
         Prior Coverage                                                 14
     B. FY 2006 Statement of Compliance Submissions by DoD Components   16
     C. Exhibit 300 Questions Reviewed                                  17
     D. Recent Information Technology Guidance                          19
     E. Report Distribution                                             21

Management Comments
     Under Secretary of Defense (Comptroller)/Chief Financial Officer   23
     Assistant Secretary of Defense for Networks and Information
        Integration/Chief Information Officer                           25
Background
    DoD Components use information technology (IT) in a wide variety of mission
    functions including finance, personnel management, computing and
    communication infrastructure, logistics, intelligence, and command and control.
    Information technology consists of any equipment or interconnected system or
    subsystem of equipment that is used in the automatic acquisition, storage,
    manipulation, movement, control, display, switching, interchange, transmission,
    or reception of data or information. The President’s Management Agenda for
    expanding electronic government identified effective planning for information
    technology investments as a priority. Improving information technology security
    is one of the Office of Management and Budget’s (OMB) highest priorities in
    information technology management. In addition, Congress has challenged, in
    committee report language, the quality of DoD information technology
    management because information technology documents and associated budget
    data that DoD provided were inaccurate, misleading, or incomplete. The
    Assistant Secretary of Defense for Networks and Information Integration
    (ASD[NII]), as the Chief Information Officer (CIO), is the principal staff assistant
    to the Secretary of Defense for DoD information technology.

    Public Law 107-347, Title III, “Federal Information Security Management Act of
    2002,” December 17, 2002, requires agencies to address the adequacy and
    effectiveness of information security policies and practices in plans and reports
    relating to annual agency budgets.

    Public Law 104-106, “National Defense Authorization Act for Fiscal Year 1996,”
    Division E, “Information Technology Management Reform,” February 10, 1996,
    commonly called the “Clinger-Cohen Act,” requires effective and efficient capital
    planning processes for selecting, managing, and evaluating the results of all major
    investments in information technology. The Act requires that executive agencies:

           •   Establish goals for improving the efficiency and effectiveness of
               agency operations through the use of information technology;

           •   Prepare an annual report, to be included in the executive agency’s
               budget submission to Congress, on the progress in achieving the goals;

           •   Prescribe performance measurements for information technology and
               measure how well information technology supports agency programs;

           •   Measure quantitatively agency process performance for cost, speed,
               productivity, and quality against comparable processes and
               organizations in the private and public sectors where they exist;

           •   Analyze the missions of the executive agency and, based on the
               analysis, revise the executive agency’s mission-related processes and
               administrative processes as appropriate before making significant
               investments in information technology; and




                                         1
           •   Ensure that information security policies, procedures, and practices of
               the executive agency are adequate.

    DoD uses the Information Technology Management Application database to plan,
    coordinate, and disseminate the DoD information technology budget exhibits that
    OMB and Congress require. The information technology budget request for
    FY 2006 totaled $30 billion.

    Components must submit an Exhibit 300, “Capital Investment Report,” for all
    major information technology investments. Major information technology
    investments:

           •   require special management attention because of their importance to
               an agency’s mission;

           •   were included in the FY 2005 submission and are ongoing;

           •   are for financial management and more than $500,000;

           •   are directly tied to the top two layers of the Federal Enterprise
               Architecture;

           •   have significant program or policy implications;

           •   have high executive visibility; and

           •   are defined as major investments by the agency’s capital planning and
               investment control process.

    DoD management and OMB use the Exhibit 300 Investment Report to show that
    the Component has employed the disciplines of good project management,
    presented a strong business case for the investment, and defined the proposed
    costs, schedule, and performance goals for the investment if funding approval is
    obtained. When submitted, the Capital Investment Report (CIR) should be
    complete and accurate and provide all the information that the Office of
    Management and Budget requires. In September 2004, DoD submitted 171 CIRs
    for the FY 2006 budget request to the Office of Management and Budget.


Objectives
    The overall audit objective was to assess whether the Services and DoD
    Components are accurately reporting information technology investment data to
    the Office of Management and Budget. Specifically, the audit determined
    whether DoD Capital Investment Reports, that were submitted in September 2004
    for the Office of Management and Budget FY 2006 reporting requirements
    demonstrated that DoD is managing its information technology investments in
    accordance with the Office of Management and Budget and DoD guidance. See
    Appendix A for discussion of the scope and methodology.



                                         2
            Completeness of DoD Capital
            Investment Reports
            DoD Components did not adequately report information technology
            investment data to the Office of Management and Budget in support of the
            DoD Budget Request for FY 2006 because Component Chief Information
            Officers and Chief Financial Officers did not always include the required
            information in the reports that they submitted. Specifically, 157 of the
            171 (92 percent) Capital Investment Reports submitted to the Office of
            Management and Budget in September 2004 did not completely address
            one or more required data elements in the sections on security and privacy
            and enterprise architecture compliance. In addition, 47 percent of DoD
            Components did not provide the required statement of compliance in
            support of their Capital Investment Report submissions. As a result, the
            quality of DoD information reported had limited value and did not
            demonstrate that DoD was effectively managing its proposed $30 billion
            information technology investment for FY 2006.


Criteria
     Office of Management and Budget Circular A-11. Office of Management and
     Budget Circular A-11, “Preparation, Submission, and Execution of the Budget,”
     Part 7, section 300, “Planning, Budgeting, Acquisition, and Management of
     Capital Assets,” July 2004, implements the Clinger-Cohen Act and establishes
     policy and procedures for planning, budgeting, acquiring, and managing Federal
     capital assets. Agencies are required to demonstrate to OMB in semi-annual
     reports that major IT investments are directly connected to agencies’ strategic
     plans and provide a positive return on investment, sound acquisition planning,
     comprehensive risk mitigation and management planning, realistic cost and
     schedule goals, and measurable performance benefits. For the DoD FY 2006
     budget request, the ASD(NII)/DoD CIO forwarded 171 CIRs to OMB. The CIR
     is the primary means of justifying and managing IT investments.

     DoD Financial Management Regulation. The DoD Financial Management
     Regulation, Volume 2B, Chapter 18, “Information Technology Resources and
     National Security Systems,” June 2004, requires all DoD Components that have
     any resource obligations for information technology or national security systems
     to prepare Capital Investment Reports, which are mandated by Circular A-11.
     The regulation requires Component Chief Information Officers and Chief
     Financial Officers to jointly attest that the CIRs submitted are complete, accurate,
     and consistent with the requirements of the Clinger-Cohen Act, Circular A-11,
     and documented exceptions to the Circular, the DoD CIO budget guidance
     memorandum, the Paperwork Reduction Act, and other applicable acts and
     requirements.

     National Defense Authorization Act for Fiscal Year 2005. The Ronald W.
     Reagan National Defense Authorization Act for FY 2005, section 332, “Defense
     Business Enterprise Architecture, System Accountability, and Conditions for


                                          3
    Obligation of Funds for Defense Business System Modernization,” subsection (h),
    “Budget Information,” establishes policy and procedures for the Secretary of
    Defense to follow when submitting budget information to Congress. For FY 2006
    and beyond, the Secretary of Defense must identify each DoD business system for
    which funding is proposed in that budget; identify all funds, by appropriation,
    proposed in that budget for each system; identify the official to whom authority
    for each system is delegated; and describe each certification for each system.


Capital Investment Reports to the Office of Management
  and Budget
    The information technology Capital Investment Reports budget request that DoD
    submitted for FY 2006 did not demonstrate that DoD was effectively and
    efficiently managing information technology resources in accordance with
    Circular A-11, July 2004. Our analysis of 171 CIR reports showed that
    157 (92 percent) contained incomplete information in one or more sections when
    compared to criteria in Circular A-11. Information addressing security and
    privacy and enterprise architecture was missing or incomplete.

    Security Funding. Circular A-11 requires DoD Components to describe how
    security is provided and funded and to report the total dollars allocated for
    IT security for all FY 2006 investments. Circular A-11 also requires Components
    to indicate whether an increase in IT security funding is requested to remediate
    IT security weaknesses, and to specify the amount and a general description of the
    weakness. Fifty-four of 171 CIR submissions (32 percent) were incomplete.
    Thirty-two submissions contained requests for FY 2005 security funding instead
    of the required FY 2006 funding. Six Components did not provide a security
    funding amount and we were unable to determine the amount of security funding
    requested for four investments based on the information given. One additional
    Component specified a security funding dollar amount, but stated, “I am not sure
    where the dollar amount came from.” In addition, 13 Components did not state
    how security was provided and funded for their investments and 4 Components
    provided incomplete information on whether an increase in IT security funding is
    required to remediate security weaknesses. Table 1 summarizes DoD
    Components CIRs incomplete security funding information responses for
    FY 2006 and for FY 2005.




                                        4
               Table 1. Incomplete Submissions for Security Funding

                                                        Percent Incomplete
      DoD Component                                  FY 2006           FY 20051
       Army                                            19                  55
       Navy                                            39                  19
       Air Force                                       36                   8
       Defense agencies                                38                  28
      1
       As reported in DoD IG Report No. D-2005-002, “Reporting of DoD Capital Investments
      for Technology in Support of the FY 2005 Budget Submission,” October 12, 1004


Certification and Accreditation. Circular A-11 requires DoD Components to
verify full certification and accreditation of IT for which investments are made,
specify the methodology used, and provide the date of the last certification and
accreditation review. Full certification and accreditation refers to the authority to
operate and excludes interim authority to operate. All IT for which investments
are made must be fully certified and accredited before becoming operational.
Anything less than full certification and accreditation indicates that identified IT
security weaknesses remain. These weaknesses must be corrected before funding
for the investment can be justified. Fifty of 171 (29 percent) investments reviewed
were not fully certified and accredited or gave incomplete answers. Inadequate
responses included investments with interim authority to operate, no date of last
review, no statement of compliance with the DoD Information Technology
Security Certification and Accreditation Process, or whether authority to operate
had been granted. Components stated that certification and accreditation approval
was pending. One stated that it was in the planning phase and that certification
and accreditation approval was not required, though the IT investment was in the
full acquisition phase. Table 2 summarizes DoD Components CIRs incomplete or
noncompliant certification and accreditation responses for FY 2006 and for
FY 2005.

          Table 2. Incomplete Certification and Accreditation Submissions

                                                        Percent Incomplete
  DoD Component                                      FY 2006           FY 20051
   Army                                                33                  50
   Navy                                                12                  56
   Air Force                                           27                  33
   Defense agencies                                    36                  33
  1
  As reported in DoD IG Report No. D-2005-002.




                                           5
Incident Handling and Reporting. Circular A-11 requires Components to
report on how they incorporated incident-handling capability into the system or
information technology investment and to include a summary of intrusion
detection monitoring and a review of audit logs. Circular A-11 also requires
Components to report on incidents that are reported to the Department of
Homeland Security Federal Computer Incident Response Center. Sixty-seven of
171 (39 percent) Capital Investment Reports did not contain the required
information for this area. Sixty-two CIRs failed to address all three elements of
this question. One Component responded that it did not need to address this area.
Some Components stated that their systems were still in development and did not
address the question, and other Components stated that incident handling would
be incorporated into the system in the future.

Security Plans. Circular A-11 requires Components to report whether
information technology investments have an up-to-date security plan and to
provide the date and other details of the plan. A simple reference to security
plans or other documents is not an acceptable response as stipulated in
Circular A-11. Twenty-eight of 171 (16 percent) investments reviewed did not
answer those questions adequately or did not confirm that they had a security
plan. Components did not always provide information supporting the existence of
a security plan or plan dates.

Contractor Security. Circular A-11 requires Components to report whether a
contractor operated the system on-site or at a contractor facility and whether the
contract includes specific security requirements required by law and policy.
Circular A-11 also requires Components to describe how contractor security
procedures are monitored, verified, and validated. Twenty-seven of
171 (16 percent) CIRs did not completely address all elements for this area.
Other Component responses stated that the IT investment was not a system, and
therefore did not include a response. The majority of the investments contained
partial responses.

Security Testing. Circular A-11 requires Components to report whether
management, operational, and technical security controls were tested for
effectiveness and when the most recent tests were performed. Twenty-two of
171 (13 percent) CIRs reviewed did not contain the required information to
adequately respond to this question. Some Components failed to confirm whether
controls were tested and others did not provide dates.

Security Training. Circular A-11 requires DoD Components to report whether
all system users were appropriately trained in the past year, including rules of
behavior and consequences for violating those rules. Twenty-one of
171 (12 percent) CIRs did not contain the necessary information to complete this
question.

       •   Reponses for 11 investments did not verify training for system users.

       •   Reponses for 3 investments were unclear or provided no answer.

       •   Responses for 7 investment said that the investment was not a system
           or that the investment was in development.


                                     6
Table 3 summarizes the incomplete submissions for the security questions for
FY 2006 and for FY 2005.

          Table 3. Incomplete Submissions for Security Questions

                                                    Percent Incomplete
  Question                                       FY 2006           FY 20051
   Security Plans                                  17                  8
   Contractor Security                             16                  6
   Security Testing                                13                  6
   Security Training                               12                  3
  1
  As reported in DoD IG Report No. D-2005-002.


Protection of Systems with Public Access. Circular A-11 requires Components
to report how agencies use security controls and authentication tools to protect
privacy of systems that promote or permit public access. Component responses
for this element were highly compliant; only 2 of 171 (1 percent) CIRs were
incomplete.

Proper Handling of Personal Information. Circular A-11 requires agencies to
handle personal information consistent with relevant Government-wide and
agency policies. Component responses for this element were highly compliant;
only 5 of 171 (3 percent) CIRs were incomplete.

Federal Information Security Management Act. The Federal Information
Security Management Act requires agencies to integrate IT security into their
capital planning and enterprise architecture processes, to conduct annual
IT security reviews of all programs and systems, and to report the results of those
reviews to OMB. In August 2004, the Director, OMB stated in a memorandum
that all agency systems must be reviewed annually. Circular A-11 requires
Components to report whether they reviewed investments as part of the FY 2004
Federal Information Security Management Act reporting process, whether the
review indicated any weaknesses, and whether the weaknesses were included in a
corrective action plan. One hundred and eleven of 171 (65 percent) CIRs
responded that the investment was reviewed as a part of the FY 2004 Federal
Information Security Management Act review process. Of those 110 investments
that were reviewed, 14 (13 percent) reported that weaknesses had been found and
that the weaknesses were included in a corrective action plan. Sixty of
171 investments (35 percent) reported that they were not reviewed as part of the
2004 Federal Information Security Management Act review process. We found
abnormalities in four CIRs. The Navy, the Air Force, and the Defense Finance
and Accounting Service submitted investment reports stating that no weaknesses
were found during the 2004 Federal Information Security Management Act
review process; however, the reports did state that weaknesses were included in a
corrective action plan. Table 4 summarizes the percentage of investments
reviewed under the Federal Information Security Management Act review process


                                       7
and the percentage of investments with stated weaknesses that were included in
their corrective actions plans for FY 2006 and for FY 2005.

  Table 4. Federal Information Security Management Act Review Process

                                                   FY 2006         FY 20051
  Percent Reviewed Under FY 2004 Act                  64               48
  Percent of Weaknesses Identified and                13               13
  Included in a Corrective Action Plan
  1
   As reported in DoD IG Report No. D-2005-002.


Enterprise Architecture Identification. The Federal Enterprise Architecture is
a business and performance-based framework developed to facilitate
Government-wide organization and collaboration efforts, so that all Government
agencies are efficiently working toward the same goal of serving the public.
Agencies submit information on the planning, acquisition, management, and use
of IT investments to OMB in the Circular A-11 Exhibit 300s. This information
assists OMB in making budget decisions and determining whether the agency
practice is consistent with OMB policies and guidance. Each agency should map
the IT investments to the reference models for Federal Enterprise Architecture
which can identify potential opportunities to collaborate with other Federal
agencies and eliminate redundant spending. Circular A-11 requires Components
to report whether the investment is identified in the agency’s enterprise
architecture, and provide an explanation if the investment is not identified. All
171 (100 percent) CIR submissions stated that the investment was identified in
their agency’s enterprise architecture.

Modernization Blueprint. Circular A-11 requires Components to report whether
the IT investment is consistent with the agency ‘to be’ modernization blueprint.
The Exhibit 300 must demonstrate either that the existing investment is meeting
the needs of the agency and the expected performance, or that the investment is
being modernized and replaced consistent with the modernization blueprint.
Four of 171 (2.3 percent) CIRs did not completely address the required
information for this area. Two of the IT investments were legacy enterprise
systems that will be discontinued.

Enterprise Architecture Review Committee. Circular A-11 requires
Components to report whether the IT investment was approved through the
agency’s Enterprise Architecture Review Committee. Five of 171 (3 percent)
CIRs were not approved through their agency’s Enterprise Architecture Review
Committee.

Process Simplification, Reengineering, and Design Projects. Circular A-11
requires Components to report what major process simplification, reengineering,
and design projects are required as part of their IT investment. Eighteen of
171 (11 percent) CIRs did not completely provide information on the projects that
were required as part of their IT investment. Nine of the investments failed to


                                        8
address all areas of the question. Five IT investments reported being exempt from
redesigning because they were weapon systems. Two IT investments claimed
that major process simplification, reengineering, and design projects did not apply
to National Security Systems. Other IT investment reports contained
non-responsive answers, or did not respond to the question.

Organization Restructuring, Training, and Change Management Projects.
Circular A-11 requires Components to report what major organization
restructuring, training, and change management projects are required. Eleven of
171 (6 percent) CIRs did not provide the required information.

Federal Enterprise Architecture Reference Models. The Federal Enterprise
Architecture is based on five reference models that identify duplicate investments,
gaps in processes, and opportunities for collaboration through a cross analysis of
all Federal agencies. This collaboration can then provide a common structure for
all agencies to improve their lines of business, such as budget allocation,
information sharing, and performance measurement.

Circular A-11 requires Components to provide information on three models, the
Business Reference Model, Service Component Reference Model, and Technical
Reference Model. The Business Reference Model describes the mission and
purpose of the Federal Government through an organized, hierarchical structured
format of the day-to-day business operations. The Service Component Reference
Model is a framework that identifies how the Federal Government’s service
Components, such as process automation, back office support technology, and
analytical services support business performance objectives and IT investments
and assets. The Technical Reference Model provides a Component-based
framework identifying standards, specifications, and technology used to construct
and deliver service Component capabilities throughout the Federal Government.
Collectively, these reference models establish a foundation to identify, design,
and distribute service Components in IT investments across the Federal
Government to yield the most efficient means of serving the public.

Lines of Business and Subfunctions. Circular A-11 requires Components to list
all the lines of business and subfunctions from the Federal Enterprise Architecture
Business Reference Model that the IT investment supports. All 171 investments
provided this list in a complete format.

Applications, Components, and Technology. Circular A-11 requires
Components to discuss the major investments in relationship to the Service
Component Reference Model section of the Federal Enterprise Architecture,
including a discussion of the Components included in the major IT investment.
Forty-two of 171 (25 percent) CIRs did not complete the table provided to
determine how the investment related to the Service Component Reference Model
section of the Federal Enterprise Architecture. Circular A-11 also requires
Components to state whether all hardware, applications, components, and web
technology requirements for the IT investment are included in the Agency
Enterprise Architecture Technical Reference Model. Eight of the 171 (5 percent)
did not answer the question completely.




                                     9
Circular A-11 requires Components to discuss the major IT investment in
relationship to the Technical Reference Model section of the Federal Enterprise
Architecture, identifying each service area, service category, service standard, and
service specification that collectively describes the technology supporting the
major IT investment. Seventy-three of the 171 (43 percent) CIRs did not
complete the table provided to determine their relationship to the Technical
Reference Model section of the Federal Enterprise Architecture.

Circular A-11 requires Federal agencies to state whether the application will
leverage existing technology components or applications across the Government.
Fourteen of the 171 (8 percent) CIRs did not completely answer this question.

Circular A-11 requires financial management systems and projects to be mapped
to the agency’s financial management system inventory that they provide
annually to OMB, identifying the system name(s) and system acronym(s) as
reported in the most recent systems inventory update. Ten of the 171 (5 percent)
IT investments did not provide the appropriate information on whether the
investment’s Financial Management System was mapped to the agency’s
financial management system inventory.

Statement of Compliance Requirement. Forty-seven percent of DoD
Components did not provide the required statement of compliance when
submitting their Capital Investment Reports in support of the FY 2006 DoD
Budget Estimate Submission. In June 2004, DoD revised DoD Financial
Management Regulation, Volume 2B, “Budget Formulation and Presentation,” to
require DoD Component Chief Information Officers and Chief Financial Officers
to sign a joint or coordinated transmittal memorandum stating that IT submissions
are complete; accurately aligned with primary budget, program and acquisition
materials; and are consistent with the requirements of Circular A-11.

The Financial Management Regulation states that statements of compliance must
be submitted within 10 calendar days of the submission due date for electronic
program and budget submission in September and within 10 calendar days after
the Five Year Defense Plan has “locked” for the final IT submission for the
President’s Budget. Component IT budget submissions are entered into the
Information Management Technology Application database administered by
ASD(NII) and submitted to OMB for the DoD Budget Estimate Submission and
to Congress for the President’s Budget. Component IT CIRs not accompanied by
a statement of compliance convey uncertainty about their completeness and
accuracy as well that of the Information Management Technology Application
database used to identify and justify the DoD IT budget request to OMB and
Congress. Submission of Component IT investment reports to OMB in support of
the DoD Budget Estimate Submission should be postponed until Component
statements of compliance are submitted to ASD(NII). Appendix B identifies the
status of DoD Components for the FY 2006 statement of compliance.
Appendix C identifies the Exhibit 300 questions we reviewed.

DoD Self-Assessment of Component Submissions. On July 19, 2004, the
ASD(NII)/DoD CIO issued policy and guidance for completing and submitting
the FY 2006 CIRs. Starting with the FY 2006 Exhibit 300 submissions, the
Director of Resources, Office of the ASD(NII)/DoD CIO was required to score all


                                    10
    investment report submissions using the newly established internal DoD self-
    assessment process.

    Office of Management and Budget Watch List. The OMB watch list is used to
    assess the potential risks that a particular IT investment poses. The assessment
    may determine that additional funding is not suitable for that investment. The
    OMB has a set of criteria to score 10 different areas of the Capital Investment
    Reports, based on a score of one to five, five being the highest. The individual
    scores are then added to form a raw score for the Business Case. If any
    investment receives a score lower than four for security and privacy, the
    investment is placed on the OMB watch list. An investment is also placed on the
    watch list if the overall raw score for the Business Case is below 31.

    OMB placed 41 (24 percent) DoD FY 2006 initiatives on the OMB FY 2006
    watch list. OMB assigned 22 investments with failing scores for security; the
    DoD self-assessment also scored 17 of the same 22 investments with failing
    scores. DoD and OMB assigned passing scores to the same eight watch list
    investments for security. OMB assigned security passing scores to an additional
    11 initiatives, which DoD scored as failing. Six of the 11 DoD-scored initiatives,
    received scores of two and below. Greater coordination between DoD and OMB
    on scoring criteria would benefit the CIR evaluation process. Self-assessment
    time constraints prevented Components from revising deficient initiatives before
    submitting them to OMB in September 2004.


Conclusion
    The quality of DoD information reported on Security and Privacy and Enterprise
    Architecture to OMB had limited value because it did not demonstrate, in
    accordance with OMB and DoD guidance, that DoD was effectively managing its
    requested $30 billion IT investment for FY 2006. Although reasonable
    explanations existed for some missing and incomplete data, that rationale could
    not be applied systemically for the majority of missing or incomplete information
    responses.

    Although CIRs are officially submitted to OMB twice yearly, Components should
    use them as management tools and update the reports as the information becomes
    available. Information reported in CIRs help management ensure that spending
    on capital assets directly supports an agency’s mission and will provide a return
    on investment equal to or better than alternative uses of funding.

    Submission of incomplete reports jeopardizes appropriate funding and diminishes
    the overall usefulness of CIRs. The quality of the data collected is of particular
    concern because DoD plans to use data collected for Exhibit 300 purposes to
    respond to other congressional information requests, such as those contained in
    the National Defense Authorization Act for FY 2005.




                                        11
Recommendations, Management Comments and
  Audit Response
    Revised Recommendation. As a result of management comments, and in light
    of recent congressional and Deputy Secretary guidance concerning IT governance
    (Appendix D), we revised Recommendation 1. to clarify our position on
    improving the quality of IT reporting to OMB and Congress.

    1. We recommend that the Under Secretary of Defense for Acquisition,
    Technology, and Logistics, the Under Secretary of Defense for Personnel and
    Readiness, the Under Secretary of Defense (Comptroller)/Chief Financial
    Officer, and the Assistant Secretary of Defense for Networks and
    Information Integration/DoD Chief Information Officer specify the processes
    that will be followed to ensure that funds are not obligated to DoD
    information technology and National Security System investments for which
    the Office of Management and Budget requires a Form 300 Exhibit that are
    not supported by complete and correct Capital Investment Reports and
    accompanying signed statements of compliance from the Component Chief
    Information Officers and Chief Financial Officers, as required by DoD
    Regulation 7000.14-R, “Financial Management Regulation.”

    Management Comments. The Deputy Comptroller, responding for the Under
    Secretary of Defense (Comptroller)/CFO, commented that responsibility for
    review and compilation of information technology material, primarily the
    IT-43 exhibits, was realigned from the Under Secretary of Defense (Comptroller)
    to the Office of the Assistant Secretary of Defense (Command, Control,
    Communications and Intelligence) on January 14, 1998, and the Under Secretary
    of Defense (Comptroller) organization that was responsible for the IT-43 exhibits
    has been disestablished. The Deputy Assistant Secretary of Defense (Resources),
    responding on behalf of the Acting Assistant Secretary of Defense for Networks
    and Information Integration/DoD Chief Information Officer, partially concurred
    and commented that the concurrent DoD/OMB program and budget review
    process rendered it neither feasible nor logical to withhold submission of
    Component information technology budget requests that do not comply with
    OMB and congressional requirements, and/or have not been certified by the
    Component CIO and CFO as compliant with the requirements of the DoD
    Regulation 7000.14-R, volume 2B, chapter 18. The Deputy Assistant Secretary
    of Defense (Resources) commented she would enlist the help of the Office of the
    Under Secretary of Defense (Comptroller) to enforce DoD Regulation 7000.14-R.

    Audit Response. We agree that a 1998 realignment occurred; however, the
    Congress and the Deputy Secretary of Defense have recently directed that the
    Under Secretary of Defense for Acquisition, Technology, and Logistics; the
    Under Secretary of Defense for Personnel and Readiness; and the Under Secretary
    of Defense (Comptroller)/Chief Financial Office assume specific responsibilities
    with regard to information technology governance, in addition to those
    responsibilities assigned to the Assistant Secretary of Defense for Networks and
    Information Integration/DoD Chief Information Officer (see Appendix D). We
    request that the Under Secretary of Defense for Acquisition, Technology, and
    Logistics, the Under Secretary of Defense for Personnel and Readiness, the Under


                                       12
Secretary of Defense (Comptroller)/Chief Information Officer, and the Assistant
Secretary of Defense for Networks and Information Integration/DoD Chief
Information Officer provide comments on the final report.

2. We recommend that the Under Secretary of Defense (Comptroller)/Chief
Financial Officer and the Assistant Secretary of Defense for Networks and
Information Integration/DoD Chief Information Officer improve the quality
of information technology reporting to the Office of Management and
Budget and Congress by expanding the self-assessment process to include
more time for DoD Components to revise deficient investments before
making the initial submission to the Office of Management and Budget.

Management Comments. The Deputy Comptroller, responding for the Under
Secretary of Defense (Comptroller)/CFO, commented that responsibility for
review and compilation of information technology material, primarily the
IT-43 exhibits, was realigned from the Under Secretary of Defense (Comptroller)
to the Office of the Assistant Secretary of Defense (Command, Control,
Communications and Intelligence) on January 14, 1998, and the Under Secretary
of Defense (Comptroller) organization that was responsible for the IT-43 exhibits
has been disestablished. The Deputy Assistant Secretary of Defense (Resources),
responding on behalf of the Acting ASD(NII)/DoD CIO, concurred with the
recommendation and stated that she would provide time to revise the CIRs and
the FY 2007 Budget Estimate Submission.

Audit Response. The Deputy Assistant Secretary of Defense (Resources)
comments are responsive to the recommendation and no further comments are
requested.

Management Comments to Appendix B. The Deputy Assistant Secretary of
Defense (Resources), responding for the Acting ASD(NII)/DoD CIO stated that
Appendix B was incorrect because it did not identify all the organizations
required to provide statements of compliance. In addition, the American Forces
Information Service, the Defense Contract Management Agency, the Defense
Logistics Agency, and TRICARE Management Agency did in fact provide
statements.

Audit Response. DoD Regulation 7000.14-R requires that statements of
compliance be provided within 10 calendar days of the due date of the electronic
submission of the program/budget submission in September. Appendix B reflects
copies of statement of compliance we received during the verification phase of
this audit. Additional statements of compliance were provided after issuance of
the draft report on March 29, 2005. Appendix B reflects only the Components
required to prepare a FY 2006 CIR.




                                   13
Appendix A. Scope and Methodology
    We examined all 171 CIRs that DoD submitted to OMB for the FY 2006 DoD
    Budget Request. We limited our review to evaluating responses in the data
    elements of security funding, certification and accreditation, incident handling
    and reporting, security plans, contractor security, security testing, security
    training, protecting systems accessible to the public, and handling private
    information. We also reviewed the responses in the data elements pertaining to
    enterprise architecture.

    We reviewed DoD Component responses on whether they reviewed
    IT investments during the FY 2004 Federal Information Security Management
    Act reporting process. We evaluated the reporting process and the completeness
    of information for report elements, based on report preparation guidance from
    Circular A-11 and DoD Regulation 7000.14-R. We did not validate information
    submitted by DoD Components in the CIRs.

    We also reviewed relevant documents pertaining to report submissions dating
    from December 2002 through May 2005. We met with the analyst responsible for
    IT budget reports within ASD(NII) to gain an overall understanding of the
    FY 2006 IT budget process. We reviewed the results of the initial DoD self-
    assessment of IT budget submissions for FY 2006.

    We performed this audit from October 2004 through May 2005 in accordance
    with generally accepted government auditing standards. We did not review the
    management control program because it was reviewed in DoD Inspector General
    Report No. D-2005-023, “Assessment of DoD Plan of Action and Milestones
    Process,” December 13, 2004 and addressed in DoD Inspector General Report
    No. D-2005-029, “Management of Information Technology Resources Within
    DoD,” January 27, 2005.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of DoD IT Management.


Prior Coverage
    During the last 5 years, the Government Accountability Office and the
    Department of Defense Inspector General have issued five reports discussing the
    reliability of DoD IT budget submission. Unrestricted Government
    Accountability Office reports can be accessed over the Internet at
    http://www.gao.gov. Unrestricted DoD Inspector General reports can be accessed
    at http://www.dodig.mil/audit/reports.




                                        14
GAO
      GAO Report No. GAO-04-115, “Improvements Needed in the Reliability of
      Defense Budget Submissions,” December 19, 2003

Department of Defense Office of Inspector General (DoD IG)
      DoD Inspector General Report No. D-2005-029, “Management of Information
      Technology Resources Within DoD,” January 27, 2005

      DoD Inspector General Report No. D-2005-023, “Assessment of DoD Plan of
      Action and Milestones Process,” December 13, 2004

      DoD Inspector General Report No. D-2005-002, “Reporting of DoD Capital
      Investments for Technology in Support of the FY 2005 Budget Submission,”
      October 12, 2004

      DoD Inspector General Report No. D-2004-081, “Reporting of DoD Capital
      Investments for Information Technology,” May 7, 2004




                                       15
Appendix B. FY 2006 Statement of Compliance
            Submissions by DoD Components


                                            Submitted a Statement of
                                             Compliance for Budget
     DoD Component                            Estimate Submission

      Navy                                                    No
      TRICARE Management Agency                               No
      Defense Logistics Agency                                No
      Defense Commissary Agency                               No
      American Forces Information Service                     No
      Defense Contract Management Agency                      No
      Defense Information Systems Agency                      No
      Army                                     Yes
      Air Force                                Yes
      Defense Human Resource Activity          Yes
      Missile Defense Agency                   Yes
      Defense Finance Accounting Service       Yes
      U.S. Transportation Command              Yes
      Office of Secretary of Defense           Yes
      Washington Headquarters Services         Yes
       Total                                    8              7




                                       16
Appendix C. Exhibit 300 Questions Reviewed
   Part I:

   d. Was this project reviewed as part of the FY 2004 Federal Information Security
   Management Act review process?

   d.1. If yes, were any weaknesses found?

   d.2. Have the weaknesses been incorporated into the agency’s corrective action
   plans?

   Part II:

   II.A. Enterprise Architecture

   A. Is this project identified in your agency’s enterprise architecture? If not, why?

   A.1. Will this investment be consistent with your agency’s “to be” modernization
   blueprint?

   B. Was this investment approved through the EA review committee at your
   agency?

   C. What are the major process simplification/reengineering/design projects that
   are required as part of this Information Technology investment?

   D. What are the major organization restructuring, training, and change
   management projects that are required?

   E. Please list all the Lines of Business and Sub-Functions from the FEA Business
   Reference Model that this Information Technology investment supports.

   II.A.3. Applications, Components, and Technology

   A. Discuss this major investment in relationship to the Service Component
   Reference Model Section of the FEA.

   B. Are all of the hardware, applications, components, and web technology
   requirements for this investment included in the Agency EA Technical Reference
   Model? If not, please explain.

   C. Discuss this major Information Technology investment in relationship to the
   Technical Reference Model section of the FEA.

   D. Will the application leverage existing components and/or applications across
   the Government (i.e., FirstGov, Pay.Gov, etc)? If so, please describe.

   E. Financial Management Systems and Projects, as indicated in Part One, must
   be mapped to the agency’s financial management system inventory provided


                                       17
annually to the Office of Management and Budget. Please identify the system
name(s) and system acronym(s) as reported in the most recent systems inventory
update required by Circular A-11 section 52.4.

II.B. Security and Privacy

II.B.1. How is security provided and funded for this investment (e.g., by program
office or by the CIO through the general support system/network)?

A. What is the total dollar amount allocated to Information Technology security
for this investment in FY 2006? Please indicate whether an increase in
Information Technology security funding is requested to remediate Information
Technology security weaknesses, specifying the amount and a general description
of the weakness.

II.B.2. Please describe how the investment (system/application) meets the
following security requirements of the Federal Information Security Management
Act, Office of Management and Budget policy, and NIST guidelines:

A. Does the investment (system/application) have an up-to-date security plan that
meets the requirements of OMB policy and NIST guidelines? What is the date of
the plan?

B. Has the investment been certified and accredited?

C. Have the management, operational, and technical security controls been tested
for effectiveness? Then were the most recent tests performed?

D. Have all system users been appropriately trained in the past year, including
rules of behavior and consequences for violating the rules?

E. Has incident handling capability been incorporated into the system or
investment, including intrusion detection monitoring and audit log reviews? Are
incidents reported to DHS’ FedCIRC?

F. Is the system operated by contractors either on-site or at a contractor facility?
If yes, does any such contract include specific security requirements required by
law and policy? How are contractor security procedures monitored, verified, and
validated by the agency?




                                     18
Appendix D. Recent Information Technology
            Guidance
   1. Public Law 108-375, Section 332, “Ronald W. Reagan National Defense
   Authorization Act for Fiscal Year 2005.” Section 2222 requires the Secretary of
   Defense to delegate responsibility for review, approval, and oversight of the
   planning, design, acquisition, deployment, operation, maintenance, and
   modernization of defense business systems to the:

          •   Under Secretary of Defense for Acquisition, Technology, and
              Logistics for any defense business system the primary purpose of
              which is to support acquisition activities, logistics activities, or
              installations and environment activities of the Department of Defense;

          •   Under Secretary of Defense (Comptroller) for any defense business
              system the primary purpose of which is to support financial
              management activities or strategic planning and budgeting activities of
              the Department of Defense;

          •   Under Secretary of Defense for Personnel and Readiness for any
              defense business system the primary purpose of which is to support
              human resource management activities of the Department of Defense;
              and

          •   Assistant Secretary of Defense for Networks and Information
              Integration and the Chief Information Officer of the Department of
              Defense for any defense business system the primary purpose of which
              is to support information technology infrastructure or information
              assurance activities of the Department of Defense National Defense
              Authorization Act 2005.

   2. Deputy Secretary of Defense Memorandum, “Department of Defense (DoD)
   Business Transformation,” February 7, 2005:

          •   Establishes the Defense Business Systems Management Committee
              (DBSMC) mandated by Public Law 108-375;

          •   Charges the DBSMC with responsibility for ensuring that funds are
              obligated for Defense Business Systems Modernization in accordance
              with section 332 of Public Law 108-375; and

          •   Directs that the Under Secretary of Defense for Acquisition,
              Technology, and Logistics; the Under Secretary of Defense
              (Comptroller); the Under Secretary of Defense for Personnel and
              Readiness and ASD(NII)/DoD CIO serve as members of the DBSMC.




                                       19
3. Deputy Secretary of Defense Memorandum, “Delegation of Authority and
Direction to Establish an Investment Review Process for Defense Business
Systems,” March 19, 2005:

       •   Delegates authorities to the Under Secretary of Defense for
           Acquisition, Technology, and Logistics; the Under Secretary of
           Defense (Comptroller); the Under Secretary of Defense for Personnel
           and Readiness and ASD(NII)/DoD CIO for review, approval, and
           oversight of the planning, design, acquisition, deployment, operation,
           maintenance, and modernization of defense business systems as
           required by 10 U.S.C. Section 2222(f); and

       •   Retains authority with the Deputy Secretary of Defense for any
           defense business system the primary purpose of which is to support
           any DoD activity not covered by the above delegations.

4. Deputy Secretary of Defense Memorandum, “Implementation Guidance on the
Realignment of the Department of Defense (DoD) Business Transformation
Program Management Office,” March 24, 2005, transfers program management,
oversight and support responsibilities regarding DoD business transformation
efforts from the Office of the Under Secretary of Defense (Comptroller) to the
Office of the Under Secretary of Defense for Acquisition, Technology, and
Logistics.

5. DoD Directive 5144.1, “Assistant Secretary of Defense Networks and
Information Integration/DoD Chief Information Officer (ASD(NII/DoD CIO),”
May 2, 2005, requires that the ASD(NII)/DoD CIO, among other duties, review
and provide recommendations to the Secretary and the Heads of the DoD
Components on:

       •   The performance of the Department’s IT and NSS programs (to
           include monitoring and evaluating the performance of IT and NSS
           programs on the basis of all applicable performances);

       •   DoD budget requests for IT and National Security System pursuant to
           section 2223 of Title 10, U.S.C.;

       •   The continuation, modification, or termination of an IT and/or
           National Security System programs or project pursuant to section 1425
           of Title 40, U.S.C.; and

       •   The continuation, modification, or termination of an NII or CIO
           program pursuant to the Federal Information Security Management
           Act of 2002 as part of Public Law 107-347, Executive Order 13011,
           and other applicable authorities.

6. “DoD Investment Review Process Overview and Concept of Operations for
Investment Review Boards,” May 11, 2005, establishes the OSD Investment
Reviews and will leverage OMB Exhibit 300 reports as well as existing Major
Automated Information System processes.



                                    20
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
Under Secretary of Defense for Personnel and Readiness
Assistant Secretary of Defense for Networks and Information Integration/Chief
   Information Officer
Director, Program Analysis and Evaluation

Joint Staff
Director, Joint Staff

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Chief Information Officer, Department of the Army
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Chief Information Officer, Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Chief Information Officer, Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service
Director, Defense Information Systems Agency

Non-Defense Federal Organization
Office of Management and Budget




                                          21
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        22
Under Secretary of Defense (Comptroller)/Chief
Financial Officer Comments




                      23
24
Assistant Secretary of Defense for Networks and
Information Integration/DoD Chief Financial
Officer Comments




                       25
Final Report
 Reference




Revised




               26
     Final Report
      Reference




     Revised




27
28
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Technology Management prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Kathryn M. Truex
Robert L. Shaffer
George A. Leighton
Robert R. Johnson
Tina N. Brunetti
Rebecca S. Courtade
Courtney E. Woodruff
James J. Buscaigio
Cindy L. Gavura
